APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Eleventh Circuit
(March 4, 2021) . . . . . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court for the Northern District of
Georgia Atlanta Division
(February 26, 2020) . . . . . . . . . . App. 34

App. 1

APPENDIX A
[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10813
D.C. Docket No. 1:16-cv-03595-MLB
[Filed March 4, 2021]
_______________________________________________
AMERICAN CONTRACTORS SUPPLY, LLC,
)
Plaintiff-Appellant,
)
)
versus
)
)
HD SUPPLY CONSTRUCTION SUPPLY, LTD., )
Defendant-Appellee.
)
_______________________________________________ )
__________________________
Appeal from the United States District Court
for the Northern District of Georgia
_________________________
(March 4, 2021)
Before ROSENBAUM, LAGOA, and ANDERSON,
Circuit Judges.

App. 2
ANDERSON, Circuit Judge:
This appeal requires us to determine whether
Plaintiff-Appellant American Contractors Supply, LLC
(“ACS”), a distributor of tilt-wall equipment, presented
evidence of facts tending to exclude the inference that
a competing distributor and a manufacturer acted
independently when the manufacturer terminated
further business with ACS in the Florida market. ACS
appeals the entry of summary judgment against it and
in favor of the competitor distributor,
Defendant-Appellee HD Supply Construction Supply,
Ltd., known as “White Cap,” on ACS’s Sherman
Antitrust Act and Georgia state law claims, all based
on the theory that White Cap illegally conspired with
the manufacturer, Meadow Burke. Because the
evidence in this case is at least “as equally consistent
with permissible competition as it is with an illegal
conspiracy,” Helicopter Support Sys., Inc. v. Hughes
Helicopter, Inc., 818 F.2d 1530, 1533 (11th Cir. 1987),
we affirm.
I. BACKGROUND
A. The Tilt Industry
ACS and White Cap are both distributors of
equipment used in tilt concrete wall construction in the
southeast. “Tilt” or “tilt wall” construction is a method
of building concrete buildings: concrete walls are cast
in panels on site, lifted into place with cranes, and
linked together. ACS and White Cap distribute tilt
products and equipment such as the cranes for lifting
the wall panels and stilts to hold the panels up and in
place during construction.

App. 3
ACS and White Cap were competitors in the
Georgia and Florida markets. In Georgia, there have
been a total of three successful distributors of tilt-wall
equipment: ACS, White Cap, and Construction
Materials, a company not involved in this dispute. ACS
distributed Meadow Burke-manufactured tilt products
and equipment and enjoyed a 25% share of the Georgia
market. White Cap had a market share of over 35%,
and Construction Materials had a market share of
about 40%.
In Florida, however, before 2016, only two main
distributors operated: Construction Materials primarily
distributed equipment from manufacturer Dayton
Superior, and White Cap—with the largest presence in
the state—nearly exclusively distributed Meadow
Burke equipment. White Cap invested in the Meadow
Burke brand in Florida by, for example, co-sponsoring
events and employing over 100 employees with more
than 10 years’ experience with Meadow Burke
products. In their respective levels in the market chain,
White Cap had over a 75% share of the Florida market,
and Meadow Burke had over a 65% share.
B. ACS’s Entry into the Florida Market
ACS wanted to expand. The location it settled on
was Florida, and the products it settled on were those
from Meadow Burke—the manufacturer whose
products ACS sold in Georgia but that only White Cap
had sold in Florida. ACS has described Meadow Burke
as a “superior product” when compared with the other
suppliers’ products, hence its desire for expansion into
Florida with Meadow Burke products.

App. 4
ACS moved to make the entry into Florida happen
by working with Mike Wolstenholme, Meadow Burke’s
Director of Tilt Up.1 ACS Chief Executive Officer Jason
Reuter and General Manager Ron Barteski met with
Wolstenholme at ACS’s Atlanta, Georgia office on April
28, 2016, where the Florida expansion idea was
discussed. Wolstenholme told ACS that Meadow Burke
would supply ACS with its products in the state if ACS
opened an office in Tampa, Florida.
After this April meeting, ACS began its entry into
the Florida market. Before establishing ACS’s Florida
office, Jason Reuter took steps to secure a bid with a
contractor in Florida; on May 10, 2016, he
communicated with contractor Flagship Tilt-Wall about
bidding on its projects. Meadow Burke’s Wolstenholme
had told Jason Reuter to proceed with the bid—for a
project to be supplied by Meadow Burke—despite ACS
not having yet opened its Florida office. ACS says part
of the reason it had the opportunity to bid on a
Flagship project was because Flagship complained to
Meadow Burke and White Cap that there was a lack of
communication and coordination by White Cap. In
other words, ACS saw an opportunity, perceiving a
competitor to be faltering and not fulfilling customer
needs.
On June 22, 2016, Jason Reuter forwarded project
drawings to Meadow Burke’s engineering department
to facilitate the Flagship bid. Around that same time,
he updated Wolstenholme on the progress of ACS’s

1

Wolstenholme also held the title of Northeast Regional Sales
Manager.

App. 5
development of a Tampa office. And on July 1, ACS
opened the office.
On July 5, 2016, ACS won the Flagship bid, and
ACS notified Meadow Burke. The Meadow Burke
engineering department, which had already been
working on the matter, prepared the bill of materials.
White Cap then accidentally found out about ACS’s
winning the bid (with Meadow Burke products) for the
Flagship project in Florida. Lori Dykes at Meadow
Burke sent the bill of materials in an email to
Christina Miller, an equipment rental coordinator at
White Cap, an incident that White Cap describes as a
clerical error. Miller forwarded the email to Doug
Bartle of White Cap, the White Cap contact for Meadow
Burke.
C. Alleged Anticompetitive Conduct
The fallout from the clerical error started when
Doug Bartle felt “hurt” after seeing the bill of materials
for a Meadow Burke-supplied project with ACS as the
distributor. He left a voicemail for Meadow Burke’s
Lori Dykes and then had a thirteen-minute phone call
with her. After the call, Dykes sent an email on July
13, 2016, to Meadow Burke’s Wolstenholme and Greg
Arnett, Meadow Burke’s Southern Regional Sales
Manager, describing the call with the subject line
“John House”; John House was the sales representative
for Dayton Superior, another supplier of tilt equipment
in Florida and Meadow Burke’s primary competitor in
Florida. The email, which ACS labels as a “smoking
gun,” read as follows:
Hello Greg and Mike,

App. 6
I just talked to Bartle and WC is very upset and
totally disappointed in MB! They can not believe
we let someone else sell Tilt in FL nor can I!
John [H]ouse[2] is flying in to meet with Doug[3]
at [W]hite [C]ap tomorrow to discuss tilt for the
Carolina area and I am sure Florida as well. We
need damage control ASAP, it was brought up to
upper management today during a meeting to
discuss bringing in more braces and strong
backs but that PO[4] is now on hold because
letting someone else into Florida. Please confirm
we will NO Longer allow anyone other than WC
to sell Tilt in Florida. Please call to discuss how
we can move forward and fix what we have done.
Lori
After receiving the email, Arnett and Wolstenholme
each proceeded to make phone calls. Arnett spoke
internally with their immediate supervisor, Meadow
Burke’s Vice President of Sales Doug Crawford, about
what had taken place. Wolstenholme had a
conversation with Bartle of White Cap later on July 13,
during which Bartle said that they needed to have a
sit-down, face-to-face conversation. Wolstenholme and
Bartle agreed to a meeting in Tampa, which took place
on July 25, 2016. Wolstenholme also responded later
2

“John House” is the sales representative for Dayton Superior.

3

“Doug” is Doug Bartle, the White Cap representative who
coordinated with Meadow Burke.
4

“PO” is a “purchase order” from White Cap on another project
that White Cap was putting on hold because of its concern about
Meadow Burke’s letting ACS sell the Meadow Burke product in
Florida.

App. 7
that day, on July 13, to the email from Dykes, copying
Arnett, saying, “I’m coming to meet them in person.
Not going to get things straight over the phone or on
any damn emails.” At some point, Arnett and Crawford
met to discuss the issue, and Arnett and Wolstenholme
had a follow-up conversation.
A week later, on July 20, 2016, Arnett emailed
Crawford, stating, “Mike [Wolstenholme] and I have
discussed the ACS/WC issue and we will not be
supporting them in FL going forward.” Later that day
and into the next, Crawford emailed the decision up the
chain of command to Meadow Burke President Eoin
Lehane, and the two had the following exchange:
[Crawford:] ACS will not be opened in FL.
Arnett and I discussed with Mike
[Wolstenholme] and came to that conclusion. Not
as straight forward as initially thought and
Mike had put a fair amount of thinking into his
perspective, but Greg [Arnett] and I were
against it and Mike is fine with our decision. . . .
[Lehane:] Good deal - glad Mike came to same
conclusion. . . .
[Crawford:] The call was really mine and Greg’s
though Mike saw both sides from the beginning.
Mike ultimately needed us to be the scapegoats
so he could tell his customer/ friend that the call
wasn’t his. . . .
[Lehane:] Sounds good - glad the call was made.
Hopefully Mike realizes not to do this again and
not without proper consultation first.

App. 8
A few days later, on July 25, 2016, Meadow Burke’s
Wolstenholme, Arnett, and Dykes met with White
Cap’s Bartle and its local managers at White Cap’s
Tampa, Florida offices. At the meeting, Meadow Burke
“reassured” White Cap that apart from the single
Flagship project already assigned to ACS, Meadow
Burke was not going to support ACS in the Florida
market.
Later that same day, Wolstenholme and Arnett met
with ACS CEO Jason Reuter and his brother Jacob
Reuter, another principal of ACS—both of whom were
working out of ACS’s new Tampa office. Wolstenholme
told them that Meadow Burke was cutting ACS off in
Florida. Wolstenholme acknowledged that they
“wouldn’t be sitting [at the meeting] if [they] didn’t
receive pressure.” Notes from this meeting indicate
that they discussed how Meadow Burke “owns” Florida
and that ACS has four projects in the northeast but
“nobody cares.”
Later communications implemented the decision to
terminate ACS. On August 10, 2016, Meadow Burke,
through Wolstenholme, denied a request by ACS to bid
on a new project. Then, sometime in August or
September 2016, the president (also a co-owner) of
Flagship—the company for whose project ACS had won
its only Meadow Burke-supplied Florida bid—was told
by Bartle that White Cap had the buying power to get
Meadow Burke to cut off ACS in Florida, stating, “We
sent him packing. We do millions a year with Meadow
Burke.” Finally, on October 13 and 14, 2016,
Wolstenholme and Arnett exchanged emails internally

App. 9
at Meadow Burke, referencing Meadow Burke and
Bartle:
Subject: Re: MB equipment orders for WC -S
E...
[Wolstenholme:] . . . Mr. Bartle has issued
several nice PO’s for equipment going to the
South East. Do you know if these orders will fall
under your guys when invoiced? Just an FYI . . .
Had a good talk with Doug – things will get
interesting . . .
[Arnett:] You drinking the kool aide? . . .
[Wolstenholme:] Doug Bartle
D. Alleged Effects
During the summer of 2016 and through the
summer of 2018, despite the lack of support from
Meadow Burke in Florida, ACS operated from its new
office in Tampa, but not without struggle. Having
stocked up on inventory and equipment and having
made other investments for expansion in Florida, ACS
decided to start working with another, newer
manufacturer, SureBuilT, after losing out on Meadow
Burke’s business. Despite this, ACS identified safety
concerns with SureBuilT products, which ACS linked
to the inability for ACS to reach a level of sales
sufficient to scale up Florida operations. ACS had at
least nine projects supplied by SureBuilT. ACS closed
shop in Florida in late August and early September
2018, more than two years after learning of Meadow
Burke’s decision.

App. 10
In addition to its own exit from the market, ACS
attributes other market effects to the alleged
anticompetitive conduct of White Cap. ACS offers
certain economic evidence paired with expert evidence,
including evidence of increases in prices for certain
products in the market and in White Cap’s gross
margins and market share in Florida.
E. Procedural History
ACS filed suit in September 2016 against White
Cap.5 ACS alleged four causes of action in its operative
complaint that were all based on the same allegations
of anticompetitive conduct—that White Cap and
Meadow Burke conspired to terminate ACS. The causes
of action alleged by ACS are: (1) unreasonable restraint
of trade in violation of section 1 of the Sherman Act, 15
U.S.C. §§ 1, 15; (2) monopolization and (3) attempted
monopolization in violation of section 2 of the Sherman
Act, id. §§ 2, 15; and (4) tortious interference with a
business relationship in violation of Georgia law.
White Cap moved for summary judgment on all four
claims, and ACS filed a motion for partial summary
judgment on the issue of the relevant market for its
Sherman Act claims.
After the motions were fully briefed, the district
court granted summary judgment in favor of White Cap
on all four of ACS’s claims. With respect to ACS’s § 1
claim, the district court recognized that proof of
concerted action was a prerequisite. The district court
held that ACS had failed to adduce evidence creating a
genuine issue of fact that White Cap and Meadow
5

Meadow Burke was not named as a defendant.

App. 11
Burke had entered into a conspiracy (i.e., an
agreement) for Meadow Burke to cease doing business
with ACS in Florida. Thus, summary judgment was
warranted. The district court also rejected ACS’s § 2
claims, concluding that there was no anticompetitive
conduct to form the basis for the § 2 claims. For the
same reason, the district court rejected ACS’s Georgia
tortious interference claims, ACS having asserted to
support that claim only antitrust violations as the
necessary improper conduct without privilege. And
because there was no violation of the antirust laws,
ACS’s partial motion for summary judgment on the
relevant market for its § 2 claims was denied as moot.6
Judgment was entered, and ACS timely appealed.
II. ANALYSIS
We review de novo a grant of summary judgment.
Cowen v. Ga. Sec’y of State, 960 F.3d 1339, 1341 (11th
Cir. 2020). Summary judgment is appropriate where
“there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). We view the evidence in the light
most favorable to the non-moving party. Cowen, 960
F.3d at 1342. “[T]his Court may affirm the judgment of
the district court on any ground supported by the
record, regardless of whether that ground was relied
upon or even considered by the district court.” Kernel

6

ACS does not challenge the district court’s denial of its motion for
partial summary judgment. We would reach the same conclusions
as the district court, that the motion is moot, in light of our
conclusion that ACS has failed to demonstrate any genuine issue
of material fact on its antitrust claims.

App. 12
Records Oy v. Mosley, 694 F.3d 1294, 1309 (11th Cir.
2012).
ACS argues that summary judgment was
erroneously granted because the evidence demonstrates
that White Cap agreed with Meadow Burke to have
Meadow Burke stop supplying ACS projects in Florida.
Because the antitrust law does not permit liability for
conduct that is equally consistent with independent
conduct as it is with concerted action, and because all
of ACS’s claims are based on the same theory of this
agreement, we hold that ACS’s evidence is deficient
and summary judgment was properly granted. We take
each of ACS’s claims in turn.
A. Section 1 Claim
Section 1 of the Sherman Antitrust Act declares
illegal “[e]very contract, combination in the form of
trust or otherwise, or conspiracy, in restraint of trade
or commerce among the several States, or with foreign
nations.” 15 U.S.C. § 1. “Despite the different
terminology, there is no magic unique to each term” in
§ 1; the terms “contract,” “combination,” and
“conspiracy” are used interchangeably to capture the
concept of concerted action, that is an “agreement.”
Tidmore Oil Co. v. BP Oil Co./Gulf Prods. Div., a Div.
of BP Oil Co., 932 F.2d 1384, 1388 (11th Cir. 1991).
And in interpreting § 1, “the Supreme Court has long
concluded that Congress intended only to prohibit
‘unreasonable’ restraints on trade.” Quality Auto
Painting Ctr. of Roselle, Inc. v. State Farm Indem. Co.,
917 F.3d 1249, 1260 (11th Cir. 2019) (en banc) (citing
Arizona v. Maricopa Cnty. Med. Soc’y, 457 U.S. 332,
343, 102 S. Ct. 2466, 2472–73, 73 L. Ed. 2d 48 (1982)).

App. 13
“Thus, § 1 prohibits (1) conspiracies that
(2) unreasonably (3) restrain interstate or foreign
trade.” Id. “The first inquiry, in any section 1 claim,
then, is to locate the agreement that restrains trade.”
Tidmore, 932 F.2d at 1388.
In this case, ACS has alleged that it, as a
distributor, was harmed by the vertical conspiracy to
exclude it from the Florida market by way of an
agreement between a competing distributor, White
Cap, and the manufacturer that both distributors
sought to sell for, Meadow Burke. ACS fails to meet the
standard of proving concerted action under § 1.
1. There is No § 1 Agreement When the
Evidence is Equally Consistent with an
Inference of Independent Action
In considering an agreement under § 1, “there is the
basic distinction between concerted and independent
action” of alleged anticompetitive actors. Monsanto Co.
v. Spray-Rite Serv. Corp., 465 U.S. 752, 761, 104 S. Ct.
1464, 1469, 79 L. Ed. 2d 775 (1984). “Independent
action is not proscribed”under § 1; only concerted action
is. Id.“A manufacturer of course generally has a right
to deal, or refuse to deal, with whomever it likes, as
long as it does so independently.” Id. (citing United
States v. Colgate & Co., 250 U.S. 300, 307, 39 S. Ct.
465, 468, 63 L. Ed. 992 (1919)).
This distinction means that at the summary
judgment stage, the plaintiff must present “evidence
that tends to exclude the possibility that the
manufacturer and nonterminated distributor[] were
acting independently.” Monsanto, 465 U.S. at 764, 104

App. 14
S. Ct. at 1471; see also Bell Atl. Corp. v. Twombly, 550
U.S. 544, 554, 127 S. Ct. 1955, 1964, 167 L. Ed. 2d 929
(2007) (“[A]t the summary judgment stage a § 1
plaintiff’s offer of conspiracy evidence must tend to rule
out the possibility that the defendants were acting
independently.” (citing Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 106 S. Ct. 1348, 89
L. Ed. 2d 538 (1986))). The terminated distributor, as
the non-moving party, must “point to evidence which
tends to exclude the possibility that the manufacturer
was operating independently in making his
determination to terminate the distributor.” Helicopter,
818 F.2d at 1534. Mere equipoise of the evidence does
not establish an agreement. Quality Auto Painting, 917
F.3d at 1267 (“[I]ndependent action is at least as
plausible as concerted action pursuant to prior
agreement; thus nothing ‘tends to exclude the
possibility of independent action,’ or ‘remove[s] . . . [this
case] from the realm of equipoise and render[s] [this
case] more probative of conspiracy . . . .’” (alterations in
original) (citation omitted)); City of Tuscaloosa v.
Harcros Chems., Inc., 158 F.3d 548, 569 (11th Cir.
1998) (“[T]he plaintiffs’ circumstantial documentary
evidence is in equipoise, and in the absence of further
evidence of collusion, summary judgment against the
plaintiffs would be in order.”). ACS, “in other words,
must show that the inference of conspiracy is
reasonable in light of the competing inference[] of
independent action.” Matsushita, 475 U.S. at 588, 106
S. Ct. at 1356.
“The summary judgment standard in vertical
restraint cases is more stringent than in other areas of
antitrust law because a higher possibility of capturing

App. 15
and invalidating legitimate business conduct exists.”
DeLong Equip. Co. v. Washington Mills Abrasive Co.,
887 F.2d 1499, 1508 (11th Cir. 1989). Indeed, we have
observed that this standard even seems contrary to the
general rule in evaluating summary judgment “since it
is at least arguable that a jury might reasonably infer
such an agreement from the existence of complaints by
a distributor and a manufacturer’s response to those
complaints by terminating the offending distributor.”
Helicopter, 818 F.2d at 1533. But this antitrust
standard accounts for the purpose of the antitrust laws
to only deter anticompetitive conduct, not chill
legitimate business practices. As such, “antitrust law
limits the range of permissible inferences from
ambiguous evidence in a § 1 case.” Matsushita, 475
U.S. at 588, 106 S. Ct. at 1356.
Furthermore, this standard means that evidence of
mere complaints from a competitor to the manufacturer
fails to establish a § 1 conspiracy.
Mere complaints from other competing
distributors are not sufficient in this regard
since they are equally consistent with both an
independent and a collusive interpretation. The
distributor must, instead, adduce positive
evidence which tends to exclude the possibility
of unilateral action.
Helicopter, 818 F.2d at 1534 (footnote omitted). “This
evidence ‘need not be such that only an inference of
conspiracy may be derived from it. It must, however, go
beyond equivocal complaints and tend to exclude the
inference of independent action.’” DeLong, 887 F.2d at
1509 (quoting Helicopter, 818 F.2d at 1534 n.4). This

App. 16
application of the standard protects a manufacturer’s
decision to deal or not deal with whomever it pleases,
allowing it the benefit of hearing legitimate complaints.
Thus, a decision to terminate a business relationship
will not normally give rise to liability without concerted
or other illegal action. See Constr. Aggregate Transp.,
Inc. v. Fla. Rock Indus., Inc., 710 F.2d 752, 773 (11th
Cir. 1983).
Applying this standard, we affirmed the grant of
summary judgment in Dunnivant v. Bi-State Auto
Parts, holding that plaintiff Dunnivant, a retailer in
the local auto parts market, failed to present evidence
tending to exclude the possibility that one of his
suppliers, Auto Electric, and a competitor, Paul Spence,
acted independently when Auto Electric terminated its
business relationship with Dunnivant in favor of
Spence after Spence complained. 851 F.2d 1575, 1582
(11th Cir. 1988). Spence had complained that
Dunnivant’s customers were leaving their empty
oxygen cylinders with Spence, leaving Spence
responsible for returning the cylinders to the original
oxygen supplier but without the benefit of the sale of
the oxygen (which Dunnivant received). Id. at 1578.
Spence threatened to pull his business with Auto
Electric because of Auto Electric’s relationship with
Dunnivant. Id. Auto Electric initially decided to stay
with Dunnivant, but it lost what turned out to be more
substantial business with Spence. Id. Auto Electric’s
sales were cut by more than half when compared to the
prior business with Spence, attributed to Dunnivant’s
insufficient purchasing practices and refusal to stock
inventory. Id. After just over a year, Auto Electric
terminated Dunnivant and reestablished business with

App. 17
Spence. Id. A former Auto Electric employee “testified
that the only reason Auto Electric terminated business
relations with Dunnivant was due to pressure from
Paul Spence.” Id. at 1580.
Dunnivant sued Spence and Auto Electric pursuant
to section 1 of the Sherman Act, alleging concerted
action, and we held that the evidence did not tend to
exclude the possibility of independent action. Id. at
1579–81. That Spence complained and Auto Electric
subsequently listened was not enough to tend to
exclude the inference of independent action under
Monsanto, 465 U.S. at 764, 104 S. Ct. at 1471, and
Helicopter, 818 F.2d at 1533–34. Dunnivant, 851 F.2d
at 1580– 81. “Mere complaints of illegal conspiracy that
are equally consistent with permissible competition,
without more, do not support even an inference of
conspiracy.” Id. at 1579. Auto Electric had independent
and legitimate business reasons to terminate
Dunnivant and reestablish a business relationship with
Spence given that Spence’s purchases per month had
been more than twice as much as Dunnivant’s turned
out to be, and given its concern with Dunnivant’s
failure to consistently purchase Auto Electric’s
products, leading to the significant drop in Auto
Electric’s sales. Id. at 1580. Auto Electric had the right
to “deal or not deal with customers for ‘reasons
sufficient to itself.’” Id. at 1581 (quoting Fla. Rock
Indus., 710 F.2d at 772).
For similar reasons, after examining the evidence in
this case, we conclude that ACS fails to meet the
standard to prove a claim for a § 1 conspiracy.

App. 18
2. ACS’s Evidence is Equally Consistent With
Competitive Conduct
ACS argues that the evidence “tends to exclude the
possibility of independent action by the manufacturer
[Meadow Burke] and distributor [White Cap].” See
Monsanto, 465 U.S. at 768, 104 S. Ct. at 1473. ACS
argues that interactions between White Cap and
Meadow Burke employees demonstrate an agreement
between the two companies for Meadow Burke to
terminate its Florida relationship with ACS. It urges
that Meadow Burke only changed its mind about ACS
after White Cap threatened to pull its business, and
they met so Meadow Burke could reassure White Cap
of exclusivity in the future, indicating that there was
an agreement. While the evidence shows that Meadow
Burke’s Mike Wolstenholme facilitated ACS’s Florida
entry and indicated a continuing supply of Meadow
Burke products for projects, and that changed only
after White Cap’s “pressure,” the following analysis
demonstrates that the evidence is at least equally
consistent with an inference of independent,
competitive conduct.
ACS places great emphasis on the internal email
from Lori Dykes of Meadow Burke that followed the
clerical error and first documented the expressed
dismay of Doug Bartle at White Cap that Meadow
Burke was initiating a Florida relationship with ACS.
The impact of this “smoking gun” email, as ACS labels
it, is best understood in the context of the status quo
beforehand.
White Cap, by all accounts, had enjoyed a nearly
exclusive relationship with Meadow Burke in Florida

App. 19
up until that point, though not formalized in an
agreement. While ACS began working with Meadow
Burke’s Wolstenholme on a Florida presence, White
Cap was unaware that its otherwise exclusive dealer
was making plans to no longer be exclusive.
About three months passed before any indication to
White Cap of ACS’s entry into Florida. Then, on or
before July 13, 2016, Meadow Burke’s Dykes accidently
sent paperwork for the ACS project to White Cap. This
was how White Cap learned that Meadow Burke was
supplying an ACS project, a clerical error seemingly
brought about because it was so common for Meadow
Burke to be sending its project documentation in
Florida to White Cap, and White Cap only.
White Cap’s Bartle called Dykes on July 13, 2016,
and expressed surprise and indignation that Meadow
Burke was permitting a competitor to distribute
Meadow Burke’s tilt product in Florida. Bartle
threatened to take White Cap’s business away from
Meadow Burke and shift to Meadow Burke’s main
competitor, Dayton Superior, with whom he would soon
be meeting. Immediately after that telephone call from
Bartle, Dykes sent the internal “smoking gun” email to
others at Meadow Burke.
The email was sent from Dykes—who had been the
only one to have then communicated with White Cap
directly at that point on the issue—to Meadow Burke
executives Greg Arnett and Mike Wolstenholme.
Wolstenholme had been the only Meadow Burke
employee in contact with ACS about Florida. The
email’s subject line read “John House,” clearly referring
to Bartle’s contact at the competitor, Dayton Superior.

App. 20
Dykes wrote that she had “just talked to Bartle and
W[hite] C[ap] is very upset and totally disappointed in
M[eadow ]B[urke]!” White Cap could “not believe
[Meadow Burke] let someone else sell Tilt in F[lorida],”
said Dykes, nor could Dykes herself. Dykes also
reported that she had learned that Bartle and John
House of Dayton Superior would be meeting the next
day to discuss tilt supplies in the Carolinas. Dykes was
“sure Florida as well” would be discussed, given White
Cap’s learning of the newly minted ACS-Meadow
Burke Florida relationship. Dykes explained that this
meant that Meadow Burke needed “damage control
ASAP.” Dykes said that “upper management” had
already met that day to discuss bringing in more
products to supply but that the purchase order from
White Cap was “now on hold because [Meadow Burke
was] letting someone else into Florida,” that someone
else being ACS. Dykes closed the email by strongly
expressing her thoughts about what this meant for
Meadow Burke: “Please confirm we will NO Longer
allow anyone other than W[hite ]C[ap] to sell Tilt in
Florida. Please call to discuss how we can move
forward and fix what we have done.” In other words,
Dykes thought Meadow Burke must terminate future
business with ACS.
After the Dykes email, Meadow Burke internally
made the decision to stop any future business with
ACS. Arnett and Wolstenholme took the information
they had learned from Dykes to their boss, Doug
Crawford, Vice President of Sales at Meadow Burke. In
turn, Crawford informed his superior, Meadow Burke’s
President Eoin Lehane, that it was decided Meadow
Burke should not add ACS to its Florida distribution.

App. 21
As noted above, the internal Meadow Burke emails
between Lehane, Crawford, Arnett, and Wolstenholme
indicate that decision was finalized on July 20.
Crawford testified that the decision about ACS was
made because White Cap had performed well for
Meadow Burke in Florida, White Cap had bought a lot
of equipment from and invested in other ways in
Meadow Burke, and it would not be fair to allow ACS
to take advantage of these efforts on the back of White
Cap. Meadow Burke did decide to supply the one
project that it had agreed to supply—the project that
led to White Cap’s learning of ACS’s work with
Meadow Burke in Florida—but not others. As a result,
Arnett and Wolstenholme informed their White Cap
and ACS contacts of the same.
At this point, the evidence demonstrates that
Meadow Burke had made an independent decision to
terminate ACS. There is no evidence that Dykes and
Bartle made an agreement on the phone on July 13.
There is also no evidence that Wolstenholme and
Bartle made an agreement during their subsequent
phone call on that same day. There is no other evidence
suggesting a conspiracy at this point in the sequence of
events. Certainly, the evidence demonstrates that
White Cap expressed its unhappiness, through Bartle,
with Meadow Burke using ACS as a distributor and
had at least suggested that White Cap would engage a
different supplier if ACS continued to distribute
Meadow Burke. But evidence of a complaint, even a
strong one, like this is not anticompetitive conduct.
ACS also relies on other evidence of subsequent
events to argue that an agreement was in fact made

App. 22
when viewed with the developments on July 13, 2016.
On July 25, Meadow Burke’s Wolstenholme and Arnett
met with White Cap’s Bartle and others at White Cap’s
Tampa, Florida offices; Meadow Burke conveyed to
White Cap its decision to honor the single Florida
project and to not use ACS for future projects in the
state. There is no evidence of the discussion involving
an agreement for Meadow Burke to terminate ACS (a
decision that had already been made and reported to
White Cap) or for White Cap in return to promise to
buy from Meadow Burke, or any other agreement.
Later that day, Wolstenholme and Arnett
communicated Meadow Burke’s decision to brothers
Jason and Jacob Reuter, principals of ACS. ACS
emphasizes three facts that it learned at this meeting.
First, ACS says Wolstenholme “admitted” that there
had been pressure from White Cap, which precipitated
the termination decision. Second, Wolstenholme
referenced projects outside of Florida, those in the
northeast, suggesting that no one had taken issue with
those projects so ACS should just let Florida go. And
third, Wolstenholme said that he and one of the
Reuters had done everything they ever said they would
do until that point.
As a final piece of evidence of conspiracy, ACS relies
upon a later statement by White Cap’s Bartle that he
told an employee of Flagship: “We sent him packing.
We do millions a year with Meadow Burke.”
Although the foregoing evidence raises an inference
that there might have been an agreement between
Meadow Burke and White Cap—Meadow Burke
agreeing to use White Cap only and terminate ACS in

App. 23
Florida in exchange for White Cap continuing to
purchase from Meadow Burke—it is evidence of
“conduct which is as equally consistent with
permissible competition as it is with an illegal
conspiracy” and “does not, without more, support . . . an
inference of conspiracy.” See Helicopter, 818 F.2d at
1533. Several reasons persuade us.
The chronology of events suggests that Meadow
Burke independently decided that it was in its best
interest to sell its product in Florida exclusively
through the White Cap distributorship and not ACS
anymore. Prompted by the threat from White Cap to
move its business from Meadow Burke to Dayton
Superior—another manufacturer that was Meadow
Burke’s main competitor—Crawford, Arnett, and
Wolstenholme internally conferred and decided that it
was in the best interest of Meadow Burke to maintain
the status quo, which had existed before Wolstenholme
authorized ACS to supply the Flagship project.
Although the decision was prompted by White Cap’s
threat to divert its business to Dayton Superior, that
decision was made without consulting White Cap, and
was not finalized until July 20. From July 13 and
through July 20, there had been no contact between
Meadow Burke and White Cap, except Bartle’s call to
Dykes on July 13, and Wolstenholme’s call back to
Bartle that same day, but there is no evidence that
either call involved any agreement between Meadow
Burke and White Cap; indeed, Meadow Burke’s
decision was not finalized until July 20, a week after
those calls on July 13. And Meadow Burke’s decision
was not communicated to White Cap until July 25.

App. 24
ACS emphasizes Wolstenholme’s perceived flipflop—he agreed to have Meadow Burke supply ACS in
Florida and then suddenly changed his mind only after
White Cap’s threats—and argues that it was his
decision alone, as Director of Tilt Up, to terminate
ACS. ACS asserts that Wolstenholme felt the pressure,
evidencing an agreement. Although the
contemporaneous emails between Crawford, Arnett,
and Wolstenholme strongly point to the decision having
been made by the sales manager of the region that
included Florida (Arnett) and a superior (Crawford), or
at least jointly by the three of them, it is not significant
which of them, or all of them jointly, made the decision.
The significant fact is the evidence points to its being
a decision that was made independently by Meadow
Burke, rather than being an agreement with White
Cap. In other words, the evidence is at least equally
consistent with the decision being an independent one,
without agreement, conspiracy, or combination. That
Wolstenholme, or anyone else, knew of White Cap’s
“threats” when making the decision is not enough
under the antitrust law. See Winn v. Edna Hibel Corp.,
858 F.2d 1517, 1520 (11th Cir. 1988) (holding that
threats from a competitor “by itself [is] not sufficient to
establish a case for the jury; a manufacturer may
legitimately respond to pressure from a [distributor] in
order to avoid losing that particular dealer’s
business.”).
The same was true in Dunnivant; Spence
complained to Auto Electric, threatening to take his
business elsewhere if Auto Electric remained in
business with Dunnivant. 851 F.2d at 1580. Despite
there being evidence that Auto Electric felt “pressure”
from Spence, the conclusion on summary judgment was

App. 25
that Auto Electric made the independent decision to
terminate business relations with Dunnivant and go
back to Spence. Id. at 1581. White Cap’s pressure in
this case is almost identical. In this case, as in
Dunnivant, ACS has failed to establish concerted
action.
Supporting our conclusion is the fact that Meadow
Burke’s decision was clearly in its best interest. For a
considerable period, White Cap had operated as
Meadow Burke’s near-sole and exclusive distributor in
Florida, although there was no written distributorship
agreement. White Cap had hired over 100 employees
with at least 10 years of experience with Meadow
Burke products. White Cap had substantially invested
and spent considerable effort in promoting the Meadow
Burke product, and resulting in part from White Cap’s
efforts, the Meadow Burke product had captured 65%
of the Florida market and was able to sell through a
distributor with its own 75% share of the market. If
White Cap carried through on its threat to transfer its
business to Dayton Superior, Meadow Burke would
have had an uphill battle to maintain its market share.
Moreover, Meadow Burke believed that White Cap had
performed well, and Meadow Burke was satisfied with
the amount of business it already had in Florida and
wanted to avoid burdening its engineering
department.7 And considering White Cap’s investment

7

ACS argues that Meadow Burke contrived the engineering
department concern as a post hoc and pretextual business reason
for ACS’s termination to protect White Cap. Whether or not ACS
is correct on this point is of little moment given the other evidence
and the fact that such evidence would not tend to exclude the

App. 26
and promotion of Meadow Burke’s product, letting ACS
“piggyback” on White Cap’s efforts and built-up
goodwill could discourage distributors from making
similar investments in the future.
ACS has merely adduced some evidence of
anticompetitive conduct on the part of Meadow Burke.
But ACS has failed to establish facts that exclude the
possibility that Meadow Burke acted independently.
The evidence is at least as consistent with the fact that
Meadow Burke, with the benefit of White Cap’s
concerns, independently made the decision to stop any
more business with ACS. Labelling the comments of
White Cap as “pressure” or “threats” alone does not rise
to its own level of anticompetitive conduct for a § 1
claim.
On the White Cap side of the coin, the conclusion is
the same. The evidence is at least equally consistent
with White Cap having made an independent decision
as with the possibility of an illegal agreement with
Meadow Burke. There is no evidence that White Cap
expressly agreed to continue distributing Meadow
Burke’s product after learning that Meadow Burke
would not use ACS for future projects. And White Cap
had every incentive to do so for its own business
reasons. White Cap had invested substantially in
promoting the Meadow Burke product in Florida, had
captured about 75% of the Florida market, and clearly
believed—as ACS does—that the Meadow Burke
product was the superior product. If White Cap
transferred its business to competitor Dayton Superior,
possibility of independent action on the part of Meadow Burke and
White Cap.

App. 27
abandoning the Meadow Burke product, it would be in
the position of having to undo the substantial work it
had done previously in promoting Meadow Burke. For
example, if it abandoned the Meadow Burke product, it
could expect ACS (or some other distributor) to
distribute the Meadow Burke product in Florida in its
stead, which would take advantage of all the goodwill
and promotion work that White Cap had done in the
past and without the need to do all the legwork. And
White Cap would be in the awkward position of telling
its general contractor customers that—notwithstanding
its many years of promoting the Meadow Burke
product as the superior product—it now thought that
the Dayton Superior product was best. White Cap
would be paddling upstream against the presumptive
65% of the market then being served by the Meadow
Burke product.
Again, our decision in Dunnivant involves almost
identical facts and persuasively supports our decision
in this case. Auto Electric had enjoyed a long-term
relationship with Spence and decided to return to the
status quo after trying out some business with
Dunnivant. Of course, Auto Electric’s decision was
informed by some time of working with Dunnivant,
unlike in our case. In one sense, however, the evidence
in our case points more forcefully to independent
action. The business reasons for Meadow Burke to stick
with its exclusive distributorship arrangement with
White Cap were so clear that it immediately chose
White Cap over ACS when first presented with White
Cap’s threat to move its purchases to Dayton, Meadow
Burke’s competitor. Thus, Meadow Burke’s business
reasons were probably stronger than Auto Electric’s in

App. 28
Dunnivant. And the other facts are almost identical,
including the pressure from White Cap in this case and
Spence in Dunnivant.
The lack of evidence of a conspiracy in this case
contrasts with DeLong v. Washington Mills Abrasive
Co., on which ACS relies to argue that even without
direct evidence of a discussion to terminate the plaintiff
between the alleged conspirators, the case must be sent
to a factfinder for a finding of conspiracy. 887 F.2d
1499, 1508 (11th Cir. 1989). Of course, ACS’s argument
misses the point; in sharp contrast to the ample
evidence of concerted action in DeLong, see id. at
1508–12, there is no evidence of an express agreement
between Meadow Burke and White Cap, and no
evidence of any kind “that tends to exclude the
possibility of independent action,” Monsanto, 465 U.S.
at 768, 104 S. Ct. at 1473, on the part of Meadow
Burke and White Cap. Without enough
evidence—direct or circumstantial—of facts that “tend
to exclude the inference of independent action,” ACS
cannot avoid summary judgment. DeLong, 887 F.2d at
1509 (quoting Helicopter, 818 F.2d at 1534 n.4)
(emphasis removed). ACS has not presented direct
evidence of an agreement, and ACS’s circumstantial
evidence, as outlined above, does not tend to exclude
the conclusion that White Cap and Meadow Burke
acted independently.
Therefore, we hold that the evidence is at least
equally consistent with Meadow Burke having made an
independent decision to terminate ACS as it is with an
inference of concerted action. And we conclude the
evidence is at least equally consistent with White Cap

App. 29
having made an independent decision to continue
distributing the Meadow Burke product as it is with it
having engaged in concerted action. Thus, we cannot
conclude that White Cap acted in a manner rising to
the level of anticompetitive conduct necessary for a § 1
claim. Summary judgment was appropriately granted.
B. Section 2 Claims8
The district court also granted summary judgment
on ACS’s monopolization and attempted
monopolization claims against White Cap pursuant to
8

We concluded in Part II.A above that ACS failed to establish its
allegation of the agreement or conspiracy between Meadow Burke
and White Cap, and thus we concluded that ACS’s § 1 claim fails.
In Part II.B below, we note that ACS must prove some
anticompetitive conduct to establish its § 2 claims, and we note
that the only anticompetitive conduct that ACS asserts to satisfy
that requirement is the same alleged agreement or conspiracy
between Meadow Burke and White Cap. Thus, we conclude in Part
II.B that ACS’s § 2 claims fail for failure to establish the only
anticompetitive conduct it asserts. In light of these conclusions, we
need not address White Cap’s suggestion that—even if such
concerted action between Meadow Burke and White Cap were
established—ACS’s claims would nevertheless fail because a
manufacturer is free to enter into an exclusive distributorship
arrangement with a distributor, and because the antitrust law
looks with favor on such exclusive arrangements, at least in the
absence of substantial harm to competition. See Phillip E. Areeda
& Herbert Hovenkamp, Antitrust Law ¶ 1653c (4th ed. 2017);
Elecs. Commc’ns Corp. v. Toshiba Am. Consumer Prods., Inc., 129
F.3d 240, 245 (2d Cir. 1997); Paddock Publ’ns, Inc. v. Chi. Trib.
Co., 103 F.3d 42, 44–47 (7th Cir. 1996); Rutman Wine Co. v. E. &
J. Gallo Winery, 829 F.2d 729, 735 (9th Cir. 1987); H & B Equip.
Co. v. Int’l Harvester Co., 577 F.2d 239, 245–46 (5th Cir. 1978);
Packard Motor Car Co. v. Webster Motor Car Co., 243 F.2d 418,
420 (D.C. Cir. 1957); see also McWane, Inc. v. F.T.C., 783 F.3d 814,
835 (11th Cir. 2015).

App. 30
section 2 of the Sherman Antitrust Act. We hold that
district court did not err in doing so.
Section 2 deems it illegal to “monopolize, or attempt
to monopolize, or combine or conspire with any other
person or persons, to monopolize any part of the trade
or commerce.” 15 U.S.C. § 2. A § 2 monopolization
claim “has two elements: (1) the possession of monopoly
power in the relevant market and (2) the willful
acquisition or maintenance of that power.” Morris
Commc’ns Corp. v. PGA Tour, Inc., 364 F.3d 1288,
1293–94 (11th Cir. 2004) (quoting United States v.
Grinnell Corp., 384 U.S. 563, 570–71, 86 S. Ct. 1698,
1704, 16 L. Ed. 2d 778 (1966)). “The second element
requires predatory or exclusionary acts or practices
that have the effect of preventing or excluding
competition within the relevant market.” Id. at 1294
(citing United States v. Microsoft, 253 F.3d 34, 58 (D.C.
Cir. 2001)).
Similarly, “a claim for attempted monopolization
under § 2” requires proof of “three things: ‘(1) that the
defendant has engaged in predatory or anticompetitive
conduct with (2) a specific intent to monopolize and
(3) a dangerous probability of achieving monopoly
power.’” Duty Free Ams., Inc. v. Estee Lauder Cos., 797
F.3d 1248, 1263 (11th Cir. 2015) (quoting Spectrum
Sports, Inc. v. McQuillan, 506 U.S. 447, 456, 113 S. Ct.
884, 890–91, 122 L. Ed. 2d 247 (1993)).
Section 2, in contrast to § 1, “covers both concerted
and independent action, but only if that action
‘monopolize[s],’ 15 U.S.C. § 2, or ‘threatens actual
monopolization,’” which is “a category that is narrower
than restraint of trade” in § 1. Am. Needle, Inc. v. Nat’l

App. 31
Football League, 560 U.S. 183, 190, 130 S. Ct. 2201,
2208–09, 176 L. Ed. 2d 947 (2010). “Monopoly power
may be equally harmful whether it is the product of
joint action or individual action.” Id.
Despite this difference, ACS based both of its § 2
claims, as conceded in its briefs and at oral argument,
on the same exact anticompetitive conduct as its § 1
claim—i.e., the alleged concerted action between
Meadow Burke and White Cap to refuse to have
Meadow Burke supply ACS in Florida. Although
concerted action is not required for a § 2 claim, some
“predatory or exclusionary act[],” Morris, 364 F.3d at
1294—i.e., some anticompetitive conduct—is required.
Because the only anticompetitive conduct asserted by
ACS to support its § 2 claims is that same alleged
concerted action and because we have already
concluded that ACS has failed to establish that
concerted action, it follows that ACS has failed to prove
conduct to establish either of its § 2 claims. Therefore,
because the evidence does not support the only
anticompetitive conduct asserted, as we have explained
in analyzing the § 1 claim, we conclude that the district
court did not err in granting summary judgment on
ACS’s monopolization and attempted monopolization
claims pursuant to § 2.9
9

ACS argued that the district court ruled sua sponte, in violation
of Federal Rule of Civil Procedure 56(f), on the issue of specific
intent to monopolize for ACS’s attempted monopolization claim.
We reject this argument because the district court’s ruling was not
sua sponte. Although White Cap’s briefing to the district court
focused only on the § 1 claim, the motion for summary judgment
itself sought judgment on all of ACS’s claims. In any event, given
that all of ACS’s antitrust claims relied upon the same alleged
anticompetitive conduct, without the establishment of such

App. 32
C. Tortious Interference
Relationship

with

a

Business

ACS’s final claim was for tortious interference with
a business relationship. Such a claim requires proof of
the following elements:
(1) improper action or wrongful conduct by the
defendant without privilege; (2) the defendant
acted purposely and with malice with the intent
to injure; (3) the defendant induced a breach of
contractual obligations or caused a party or
third parties to discontinue or fail to enter into
an anticipated business relationship with the
plaintiff; and (4) the defendant’s tortious conduct
proximately caused damage to the plaintiff.
Trico Env’t Servs., Inc. v. Knight Petroleum Co., 849
S.E.2d 538, 545 (Ga. Ct. App. 2020) (quoting Dalton
Diversified, Inc. v. AmSouth Bank, 270 Ga. App. 203,
208–09, 605 S.E.2d 892, 897–98 (2004)). Georgia law
recognizes a privilege of “fair competition.” Orkin
Exterminating Co. v. Martin Co., 240 Ga. 662, 666, 242
S.E.2d 135, 139 (1978). “The competitor’s privilege is
lost,” for the purposes of the first element of a tortious
interference claim, “when an illegal restraint of trade
or competition under federal or state statutes is created
conduct, ACS’s attempt claim fails regardless of the intent
element. Cf. Morris, 364 F.3d at 1293 n.10 (“[T]he elements of the
two offenses [monopolization and attempt to monopolize] differ in
only one material respect: attempt to monopolize requires specific
intent to achieve monopoly power. Therefore, the attempt claim in
this case is more difficult to maintain and prove. Because Morris
does not withstand summary judgment on its monopolization
claim, it cannot maintain its attempt claim.” (citation omitted)).

App. 33
or continued.” Am. Bldgs. Co. v. Pascoe Bldg. Sys., Inc.,
260 Ga. 346, 349, 392 S.E.2d 860, 863 (1990).
ACS conceded in its brief and at oral argument that
its tortious interference claim relies on the same theory
of conduct as its other claims—the alleged concerted
action of White Cap and Meadow Burke. ACS argues
that the district court erred in holding that there was
no genuine issue of material fact that White Cap acted
properly and with the privilege afforded to legal
competition. Having failed to prove its only theory—the
concerted action as “an illegal restraint of trade or
competition under federal . . . statutes”—ACS cannot
establish a tortious interference claim. Therefore,
summary judgment was appropriately granted on the
tortious interference claim.
III. CONCLUSION
For the foregoing reasons, we affirm the district
court’s grant of summary judgment in favor of White
Cap.10
AFFIRMED. 11
10

Because we affirm the entry of summary judgment and
dismissal of ACS’s case, ACS’s argument regarding reassignment
is moot. Moreover, the argument is without merit.
11

On October 29, 2020, ACS filed a motion for this Court to take
judicial notice of a merger involving White Cap in October 2020.
White Cap filed a response to this motion and simultaneously
moved for sanctions against ACS. Because, as we explain, all of
ACS’s claims rely on the theory of anticompetitive conduct
comprised of the alleged agreement between White Cap and
Meadow Burke in 2016, and because ACS failed to prove such an
agreement, we deny as moot ACS’s motion for judicial notice.
White Cap’s motion for sanctions is also denied.

App. 34

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
Case No. 1:16-cv-03595
[Filed February 26, 2020]
___________________________________
American Contractors Supply, LLC, )
)
Plaintiff,
)
)
v.
)
)
HD Supply Construction Supply, Ltd., )
)
Defendant.
)
___________________________________ )
Michael L. Brown
United States District Judge
ORDER
Plaintiff American Contractors Supply, LLC (“ACS”)
claims Defendant HD Supply Construction Supply, Ltd.
(“White Cap”)1 conspired with another company to
1

Plaintiff first named White Cap Construction Supply, Inc. as the
defendant in this matter but then filed an amended complaint to
correct the name to HD Supply Construction, Ltd., d/b/a HD
Supply Construction & Industrial—White Cap. The Court refers
to Defendant as White Cap throughout this order.

App. 35
freeze it out of the Florida market for tilt construction.
ACS sued White Cap for violating federal antitrust
laws and tortious interference under Georgia law.
White Cap moved for summary judgment on all counts.
I.

Factual Background

This case arises from Plaintiff ACS’s contention that
it was pushed out of the Florida market for tilt-up
construction when manufacturer Meadow Burke
refused to support it and instead chose to maintain its
otherwise exclusive relationship with Defendant White
Cap. Despite alleging concerted action to restrain
trade, ACS sued only White Cap (its direct competitor)
without including Meadow Burke (the company that
decided not to do business with it).
Tilt-wall construction, allows contractors to cast
wall panels at the jobsite, leading to the use of fewer
panels, less equipment, and cheaper, larger, and more
rapidly erected buildings. (Dkts. 55-2 ¶ 1; 73-1 ¶ 1.)
Tilt-wall buildings insulate more easily, better resist
normal wear-and-tear, and endure extreme weather.
(Dkts. 55-2 ¶ 2; 73-1 ¶ 2.) The Florida geographic
market, the construction market at issue, offers a
healthy growth trajectory for tilt-wall construction.
(Dkts. 55-2 ¶ 3; 73-1 ¶ 3.) Three manufacturers supply
tilt-wall-specific equipment in Florida: Meadow Burke,
Dayton Superior, and SureBuilT. (Dkts. 55-2 ¶ 4; 73-1
¶ 4.) Each manufacturer works with specific
distributors in the state. Meadow Burke, for example,
distributes only through White Cap — the business
relationship prompting this antitrust lawsuit; Dayton
Superior distributes mainly through Construction
Materials, Inc.; and SureBuilT distributes through

App. 36
ACS2 and Construction Materials. (Dkts. 55-2 ¶ 5; 73-1
¶ 5.) ACS alleges these manufacturers typically require
a distributor to have a physical office in Florida before
selling to customers in that state. ACS also alleges they
closely control entry into the Florida market by
limiting distributors to which they will sell. (Dkt. 73-1
¶ 6.)
Meadow Burke and Dayton Superior are the most
established manufacturers. (Dkts. 73-3 ¶ 2; 78-1 ¶ 2.)
Meadow Burke is the manufacturer with a “position of
power” in the tilt-up industry, because of its superior
engineering department and industry veterans. (Dkts.
55-2 ¶¶ 9–10; 73-1 ¶¶ 9–10; 78-1 ¶ 23.) It controls
much of the market through its partnership with White
Cap, which has “invested heavily in the Meadow Burke
brand” according to Meadow Burke’s Vice President for
Sales and Marketing. (Dkts. 55-2 ¶ 14; 73-1 ¶ 14.)
White Cap has a substantial presence in Florida. It
maintains fourteen locations, operates three rental
yards, employs twenty-nine tilt-specialist account
managers, and employs over one hundred people with
extensive experience in Meadow Burke tilt-up
construction. (Dkts. 55-2 ¶ 15; 73-1 ¶ 15.) White Cap
also keeps working to develop its relationship with
Meadow Burke, including cosponsoring events with
2

In September 2018, well after the filing of this lawsuit, ACS
closed its Florida location because of poor sales performance with
SureBuilT. (Dkts. 73-1 ¶ 5; 78-1 ¶ 93.) Many customers chose not
to use SureBuilT, a less well-established tilt construction
manufacturer. (Dkts. 73-3 ¶ 86; 78-1 ¶ 86.) In its statement of
facts, ACS also includes various facts about its unsuccessful
performance in Florida, but those facts are immaterial to the
Court’s determination. (See, e.g., Dkt. 73-3 ¶¶ 79–92.)

App. 37
Meadow Burke and working with the manufacturer to
identify new business opportunities. (Dkts. 55-2 ¶ 16;
73-1 ¶ 16.)
ACS, in contrast, conducts most of its business from
its office in Atlanta, Georgia. (Dkts. 73-3 ¶ 1; 78-1 ¶ 1.)
It has limited presence in Florida. (Dkts. 73-1 ¶ 17;
73-3 ¶ 10; 78-1 ¶ 10.) ACS and Meadow Burke had
discussed ACS opening a location in Florida. (Dkts.
73-3 ¶ 28; 78-1 ¶ 28.) ACS claims that, during a
meeting in April 2016, its main contact at Meadow
Burke, Mike Wolstenholme, committed to supplying
ACS with Meadow Burke-branded tilt products in
Florida. (Dkts. 73-3 ¶ 27; 78-1 ¶ 27.) The record
contains no definitive evidence memorializing this
meeting or the agreement, however. ACS and Meadow
Burke never had a written distributor agreement.
(Dkts. 73-3 ¶ 5; 78-1 ¶ 5.) Meadow Burke likewise had
no written agreement to distribute exclusively with
White Cap in Florida. (Dkts. 73-3 ¶ 19; 78-1 ¶ 19.)
At some point after this meeting, ACS sent Meadow
Burke’s engineering department drawings for a Florida
project. (Dkts. 55-2 ¶ 21; 73-1 ¶ 21.) White Cap claims
this was a “backdoor submission” by ACS because ACS
did not properly inform its contacts at Meadow Burke
about the project before submitting the drawings
directly to the engineering department. (Dkt. 55-2
¶ 21.) As a result of how ACS submitted its drawings,
they were given priority in Meadow Burke’s
engineering department over projects that White Cap
and other distributors had already submitted. White
Cap refers to this as ACS appearing to have jumped the
line. (Dkts. 55-2 ¶ 23; 67-1 at 31:11–14, 33:20–24.)

App. 38
Meadow Burke’s Sales Manager for Florida then
inadvertently sent White Cap paperwork related to
ACS project, alerting White Cap to ACS’s work with
Meadow Burke. (Dkts. 55-2 ¶ 22; 73-1 ¶ 22.) Doug
Bartle, White Cap’s Director of Tilt Sales, saw the ACS
documents and called Meadow Burke. He was “very
upset” and “totally disappointed” that Meadow Burke
had decided to sell to ACS. (Dkt. 78-1 ¶ 52.) He placed
a Meadow Burke order on hold and said he would be
meeting with Dayton Superior the next day. ACS says
this was a threat by White Cap to switch suppliers
away from Meadow Burke. (Dkts. 55-2 ¶ 23; 73-1 ¶ 23.)
About a week later, Meadow Burke decided it would
not supply ACS on future tilt projects in Florida. (Dkts.
55-2 ¶ 25; 73-1 ¶ 25.) The parties dispute who at
Meadow Burke made that decision. ACS claims Mike
Wolstenholme (its contact) made the decision because
of pressure from White Cap. (Dkt. 73-1 ¶¶ 25–26.) But
ACS cites no admissible evidence to support its
contention.3 White Cap says Doug Crawford, Meadow
Burke’s Vice President of Sales and Marketing, made
the decision. (Dkt. 55-2 ¶ 25.) Crawford testified that
he recalled “no pressure” from White Cap to stop
dealing with ACS. (Dkts. 55-2 ¶ 26; 73-1 ¶ 26.)
Crawford testified that he decided not to add ACS as
another distributor in Florida because:
3

ACS often cites deposition testimony and declarations from two
of its employees to support its statement of facts. Much of this
hearsay support comes from what ACS’s employees claim another
person told them, however. The Court disregards these
unsupported hearsay statements. In any case, “self-serving
hearsay . . . has no probative value on summary judgment.”
Kirkland v. Tamplin, 645 S.E.2d 653, 656 (Ga. Ct. App. 2007).

App. 39
• White Cap had “performed well” for Meadow
Burke in Florida;
• White Cap had “bought a lot of equipment”
and invested in its relationship with Meadow
Burke in other ways, so it would not be “fair”
to allow ACS to “piggyback” on White Cap’s
efforts;
• Meadow Burke was “satisfied with the
amount of business it was getting” in Florida;
and
• Meadow Burke had a backlog in its
engineering department and feared
additional orders from ACS would exacerbate
that backlog for current customers, like
White Cap.
(Dkts. 55-2 ¶ 27; 73-1 ¶ 27; 78-1 ¶ 110.) 4
ACS claims that there are “no internal records of
why Meadow Burke cut off ACS.” (Dkt. 73-1 ¶ 27.) The
Court, however, has Crawford’s testimony about his
decision. Again, ACS does not dispute Crawford’s
testimony or directly refute that he was the
decisionmaker.
Instead, ACS focuses on the specific timing of
communications between Doug Bartle of White Cap
and various Meadow Burke salespeople. For instance,
ACS asserts that “Mr. Bartle left a voice mail with Ms.
Dykes [Meadow Burke’s sales manager who mistakenly
4

Because ACS claims (without record evidence) Wolstenholme
made the decision, it does not directly address White Cap’s facts
about Crawford’s reasons for ending the relationship.

App. 40
sent the email] on July 13, 2016 at 9:53 a.m.” (Dkts.
73-3 ¶ 48; 78-1 ¶ 48.) “Ms. Dykes called Mr. Bartle
back by cell phone at 2:04 p.m.” (Dkts. 73-3 ¶ 49; 78-1
¶ 49.) “Mr. Bartle and Ms. Dykes were on the call for
13 minutes.” (Dkts. 73-3 ¶ 50; 78-1 ¶ 50.) And then
“[l]ess than an hour later, Ms. Dykes sent an email to
Mr. Wolstenholme and Mr. Arnett reporting her
telephone conversation with Mr. Bartle.” (Dkts. 73-3
¶ 51; 78-1 ¶ 51.)
In the email, Ms. Dykes explained that White Cap
was very upset about Meadow Burke’s decision to “let
someone else into Florida,” that White Cap had
cancelled an order, and that she wanted Mr.
Wolstenholme and Mr. Arnett to “confirm [Meadow
Burke] will NO longer allow anyone other than [White
Cap] to sell Tilt in Florida.” (Dkts. 73-3 ¶¶ 51–55; 73-4
at 245.) Mr. Bartle admitted he was trying to get
Meadow Burke to reconsider its decision to supply ACS
in Florida. (Dkt. 73-3 ¶ 56.) Mr. Arnett then called Mr.
Crawford after receiving the email from Ms. Dykes and
“told him about ‘what had taken place.’ ” (Dkts. 73-3
¶ 58; 78-1 ¶ 58.)
As discussed below, these facts do not suggest any
unlawful agreement in violation of the antitrust laws.
Instead, they point to essentially a game of telephone
up the chain of command that one of Meadow Burke’s
major customers was unhappy. They point to an
unhappy customer and its attempt to pressure its
supplier. But again, ACS presents nothing to dispute
Mr. Crawford’s testimony that he decided to stop doing
business with ACS and was not influenced by improper
pressure from White Cap to do so.

App. 41
After Meadow Burke informed ACS of its decision
not to supply further projects, Meadow Burke fulfilled
its commitment on the existing project. (Dkts. 55-2
¶ 28; 73-1 ¶ 28.) ACS then partnered with SureBuilT to
sell tilt supplies for projects in Florida, which supplied
ACS on at least nine tilt projects there. (Dkt. 55-2
¶ 30.) It is undisputed that White Cap did nothing to
interfere with that business relationship. (Dkts. 55-2
¶ 31; 73-1 ¶ 31.) After these events transpired — with
ACS partnering with SureBuilT — the Florida market
included three tilt-wall manufacturers rather than two,
and three statewide distributors rather than two.5
(Dkts. 55-2 ¶ 33; 73-1 ¶ 33.)
In September 2016, however, ACS sued White Cap,
alleging claims of unlawful restraint on trade and
monopolization in violation of the Sherman Act and
tortious interference under Georgia law. (Dkt. 7 at 14–
16.) White Cap moved for summary judgment on all of
ACS’s claims while ACS moved for partial summary
judgment as to the relevant market. (Dkts. 55; 56.) Also
pending are ACS’s motions to exclude and to seal.
(Dkts. 57; 69; 75.)
II.

Legal Standard
A. Summary Judgment

Rule 56 of the Federal Rules of Civil Procedure
provides that a court “shall grant summary judgment
if the movant shows there is no genuine dispute as to
5

Since the filing of the complaint, ACS has “quietly” shuttered its
Florida office. The Florida market now includes two statewide tilt
distributors, White Cap and Construction Materials. (Dkt. 73-1
¶ 33.)

App. 42
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a). A
factual dispute is genuine if the evidence would allow
a reasonable jury to find for the nonmoving party.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986). A fact is “material” if it is “a legal element of
the claim under the applicable substantive law which
might affect the outcome of the case.” Allen v. Tyson
Foods, Inc., 121 F.3d 642, 646 (11th Cir. 1997).
The party moving for summary judgment bears the
initial burden of showing a court, by reference to
materials in the record, that there is no genuine
dispute as to any material fact that should be decided
at trial. Hickson Corp. v. N. Crossarm Co., 357 F.3d
1256, 1260 (11th Cir. 2004) (citing Celotex Corp. v.
Catrett, 477 U.S. 317, 323 (1986)). A moving party
meets this burden merely by “ ‘showing’—that is,
pointing out to the district court—that there is an
absence of evidence to support the nonmoving party’s
case.” Celotex, 477 U.S. at 325. The movant, however,
need not negate the other party’s claim. Id. at 323. In
determining whether the moving party has met this
burden, a court must view the evidence and all factual
inferences in the light most favorable to the party
opposing the motion. Johnson v. Clifton, 74 F.3d 1087,
1090 (11th Cir. 1996).
Once the movant has adequately supported its
motion, the nonmoving party then has the burden of
showing that summary judgment is improper by
coming forward with specific facts showing a genuine
dispute. Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 587 (1986). Ultimately, there is no

App. 43
“genuine [dispute] for trial” when the record as a whole
could not lead a rational trier of fact to find for the
nonmoving party. Id. But “the mere existence of some
alleged factual dispute between the parties will not
defeat an otherwise properly supported motion for
summary judgment; the requirement is that there be
no genuine issue of material fact.” Anderson, 477 U.S.
at 247–48. The court, however, resolves all reasonable
doubts in favor of the non-movant. Fitzpatrick v. City
of Atlanta, 2 F.3d 1112, 1115 (11th Cir. 1993).
B. Motions to Seal
Federal Rule of Civil Procedure 26(c) provides that
a court, for good cause, may issue an order to protect a
party from annoyance, embarrassment, oppression, or
undue burden or expense, including requiring that a
trade secret or other confidential research,
development, or commercial information not be
revealed or be revealed only in a specified way. Fed. R.
Civ. P. 26(c)(1)(H). Courts determine whether there is
good cause to seal by balancing the public’s “interest in
obtaining access” against the “party’s interest in
keeping the information confidential.” Chi. Tribune Co.
v. Bridgestone/Firestone, Inc., 263 F.3d 1304, 1313
(11th Cir. 2001). “[D]iscovery material filed in
connection with pretrial motions that require judicial
resolution of the merits” is subject to the common-law
right of access to judicial proceedings, which includes
the right to inspect and copy public records and
documents. Id. at 1311–12. The common-law right of
access “requires the court to balance the respective
interests of the parties.” Id. at 1313.

App. 44
C. Motions to Exclude under Rule 702
Trial courts serve a critical gate-keeping function
concerning the admissibility of expert testimony.
Daubert v. Merrell Dow Pharms., Inc., 509 U.S. 579,
589 (1993). Expert testimony can be particularly
persuasive, and as such, the role of the trial court is to
keep speculative and unreliable testimony from
reaching the jury. Id. at 595; see McCorvey v. Baxter
Healthcare Corp., 298 F.3d 1253, 1256 (11th Cir. 2002).
Federal Rule of Evidence 702 allows a qualified
expert to give opinion testimony when it is necessary to
help the trier of fact understand the issues, the opinion
is based on sufficient facts or data, the expert produced
it using reliable principles and methods, and those
principles and methods were reliably applied to the
facts of the case. Fed. R. Evid. 702. The Eleventh
Circuit employs a “rigorous” three-part inquiry to
determine whether these admissibility criteria are met.
City of Tuscaloosa v. Harcros Chems., Inc., 158 F.3d
548, 562 (11th Cir. 1998). Expert testimony is
admissible when
(1) the expert is qualified to testify competently
regarding the matters he intends to address;
(2) the methodology by which the expert reaches
his conclusions is sufficiently reliable as
determined by the sort of inquiry mandated in
Daubert; and (3) the testimony assists the trier
of fact, through the application of scientific,
technical, or specialized expertise, to understand
the evidence or to determine a fact in issue.

App. 45
Id. (internal footnote omitted). Thus, the admissibility
of an expert’s opinion turns on three things:
qualifications, reliability, and helpfulness. See United
States v. Frazier, 387 F.3d 1244, 1260–62 (11th Cir.
2004).
While the trial court’s role is critical, it “is not
intended to supplant the adversary system or the role
of the jury.” Allison v. McGhan Med. Corp., 184 F.3d
1300, 1311 (11th Cir. 1999). When the accuracy of
evidence is the issue — as opposed to its admissibility
— the trial court should allow the judicial process to
resolve the matter. Daubert, 509 U.S. at 596 (“Vigorous
cross-examination, presentation of contrary evidence,
and careful instruction on the burden of proof are the
traditional and appropriate means of attacking shaky
but admissible evidence.”).
III.

Analysis & Discussion
A. Defendant White Cap’s Motion for Summary
Judgment (Dkt. 55)

ACS asserts claims for restraint of trade,
monopolization, and attempted monopolization, under
Sections 1 and 2 of the Sherman Act. 15 U.S.C. §§ 1–2.
(Dkt. 7 ¶¶ 48–53.) It also asserts a claim against White
Cap under Georgia law for tortious interference with
its business relationship with Meadow Burke. (Id.
¶¶ 57–65.) White Cap moves for summary judgment on
all counts.
1. Count One – Monopolization
Section 2 of the Sherman Act provides that “[e]very
person who shall monopolize, or attempt to monopolize,

App. 46
or combine or conspire with any other person or
persons, to monopolize any part of the trade or
commerce among the several States, . . . shall be
deemed guilty of a felony.” 15 U.S.C. § 2. As an offense
then, monopolization requires two elements: “(1) the
possession of monopoly power in the relevant market
and (2) the willful acquisition or maintenance of that
power as distinguished from growth or development as
a consequence of a superior product, business acumen,
or historic accident.” Eastman Kodak Co. v. Image
Tech. Servs., Inc., 504 U.S. 451, 481 (1992) (internal
quotation marks omitted).
The first element, monopoly power, is the power to
control prices in or to exclude competition from the
relevant market. Morris Commc’ns Corp. v. PGA Tour,
Inc., 364 F.3d 1288, 1294 (11th Cir. 2004). The second
element requires predatory or exclusionary acts or
practices that have the effect of preventing or excluding
competition. Id. For a practice to be unlawfully
exclusionary, however, “a defendant must harm the
competitive process, and thereby harm consumers. In
contrast, harm to one or more competitors will not
suffice” under Section 2. McWane, Inc. v. F.T.C., 783
F.3d 814, 835–36 (11th Cir. 2015) (internal quotation
marks omitted). This is because the Sherman Act does
not require a company with monopoly power to alter its
way of doing business in order to promote competition.
Section 2 of the Sherman Act merely prohibits the
unlawful monopolization and the unlawful refusal to
deal. See Morris Commc’ns, 364 F.3d at 1295 (internal
quotation marks omitted). “Unlawful monopoly power
requires anticompetitive conduct, which is conduct
without a legitimate business purpose that makes

App. 47
sense only because it eliminates competition.”
(internal quotation marks omitted).

Id.

ACS alleges that White Cap “acquired and
maintained” its monopoly power causing Meadow
Burke to stop doing business with ACS. (Dkt. 7 ¶ 49.)
ACS’s alleged exclusion from the market and resulting
injury thus arose, if at all, from Meadow Burke’s
decision to stop doing business with it and to continue
its (functionally) exclusive relationship with White
Cap. But, ACS chose to sue only White Cap while
leaving Meadow Burke, the company that refused to
deal with it, out of the litigation. By doing so, ACS
seeks to divorce the alleged anticompetitive decision
from the bedrock principle that “[i]n the absence of any
purpose to create or maintain a monopoly . . . a
company may deal or refuse to deal with whomever it
pleases.” Morris Commc’ns, 364 F.3d at 1294–95
(quoting Aspen Skiing Co. v. Aspen Highlands Skiing
Corp., 472 U.S. 585, 601–02 (1985)).
ACS cannot plead around this legitimate business
practice. A company’s refusal to deal with another
company in order to protect or further its own
legitimate business purposes does not violate the
antitrust laws, even if its refusal to deal injures
competition or a competitor. Id. at 1295 (“Likewise,
refusal to deal that is designed to protect or further the
legitimate business purposes of a defendant does not
violate the antitrust laws, even if that refusal injures
competition.”). Ordinarily, once a defendant establishes
its valid business justification for its conduct, the
burden shifts to the plaintiff to show that the proffered
business justification is pretextual. Id. A defendant in

App. 48
the position of White Cap — that is, a company who
receives the benefit of another company’s legitimate
decision not to deal with a plaintiff — should be
permitted the benefit of this same principal. That
company does not violate the Sherman Act simply by
being the beneficiary of another company’s legitimate
decision to refuse to deal with a competitor.
And the undisputed evidence in the record shows
that is exactly what happened here. The employees of
Meadow Burke testified as to their legitimate decision
to stop doing business with ACS. They said White Cap
had “performed well” for Meadow Burke in Florida.
(Dkts. 55-2 ¶ 27; 73-1 ¶ 27; 78-1 ¶ 110.) It had “bought
a lot of equipment” and invested in its relationship
with Meadow Burke in other ways, so it would not be
“fair” to allow ACS to “piggyback” on White Cap’s
efforts. (Dkts. 55-2 ¶ 27; 73-1 ¶ 27; 78-1 ¶ 110.)
Meadow Burke was thus “satisfied with the amount of
business it was getting” in Florida and did not feel the
need to expand. (Dkts. 55-2 ¶ 27; 73-1 ¶ 27; 78-1
¶ 110.) Meadow Burke also had a backlog in its
engineering department and feared that additional
orders from ACS could further lengthen the backlog,
upsetting and alienating current customers, like White
Cap. (Dkts. 55-2 ¶ 27; 73-1 ¶ 27; 78-1 ¶ 110.) Again,
White Cap presented evidence that Meadow Burke had
“long lead times for engineering,” was at full capacity,
and “already maxed out with what [its engineers] could
handle.” (Dkt. 62-1 at 27:15–28:2.) It was taking
Meadow Burke too long to do the work it already had.
It feared that, if it added another supplier, their lead
times would get even longer, causing it to lose business.
(Id.; Dkt. 67-1 at 34:11–17.) There is evidence in the

App. 49
record that White Cap was also concerned about
delivery times from Meadow Burke’s engineering
department and complained to Meadow Burke about it.
For instance, Meadow Burke employees testified that
they had heard “consistently throughout [the] year . . .
concern over lead times” and had reached capacity in
their engineering department. (Dkt. 66-1 at 19:17–19,
32:19–20 (“Typically, the lead time that we shoot for is
about two weeks and at that time we were at about
four weeks.”).)
White Cap also presented evidence that, when ACS
submitted plans directly to Meadow Burke’s
engineering department rather than following proper
channels, ACS “jumped the line,” thus getting its plans
in front of plans that White Cap and other distributors
had previously submitted. (Dkt. 67-1 at 31:5–14.)
White Cap was understandably upset and concerned
that the backlog in the engineering department would
get worse. (See id. at 34:11–19.)
White Cap has met its burden of showing that
Meadow Burke had a valid business justification for its
decision to stop doing business with White Cap. The
burden thus shifts to ACS to allege facts to support an
inference that the proffered justification is merely
pretextual, thereby establishing a genuine issue of
material fact. Morris Commc’ns, 364 F.3d at 1296. ACS
has not done that. Instead, ACS argues that Meadow
Burke could have and should have increased its
engineering capacity in order to support both ACS and
White Cap. It says Meadow Burke should have added
more engineers or outsourced engineering. (Dkt. 73 at
22 n.8.) That is not how the antitrust laws work. That

App. 50
ACS can imagine steps Meadow Burke could have
taken to change its business and work with ACS does
not suggest its business justification for deciding to
stop doing business with ACS was pretextual. Because
ACS has not raised any issue of material fact
challenging Meadow Burke’s valid business
justification, White Cap is entitled to summary
judgment.6
Implicit in Meadow Burke’s “freedom to deal
exclusively” with White Cap “is the freedom to refuse
to deal with” ACS. See Dunnivant v. Bi-State Auto
Parts, 851 F.2d 1575, 1581 (11th Cir. 1988). The
virtually exclusive dealing between White Cap and
Meadow Burke is thus “free from scrutiny in the
absence of proof of competitive harm, or other
underlying illegal behavior.” See Constr. Aggregate
Transp., Inc. v. Fla. Rock Indus., Inc., 710 F.2d 752,
773 (11th Cir. 1983). Exclusive distributorships are
common and are pro-competitive because they can
foster competition, not because they guarantee the
success of competitors. See McWane, Inc., 783 F.3d at
827.
Even putting aside Meadow Burke’s legitimate
reason for refusing to supply ACS on future projects in
Florida, ACS’s monopolization claim fails because it
6

A court assessing a claim under § 2 of the Sherman Act must first
determine the relevant market and whether the defendant
possessed monopoly power in that market. The Court has not done
so here because, even assuming White Cap possessed that power
in the relevant market, ACS cannot prevail on its claim because
White Cap (and Meadow Burke) have proffered a valid business
justification for their actions and ACS has not shown that reason
to be a pretext for illegal activity.

App. 51
has presented no evidence from which a jury could
conclude that White Cap’s (or Meadow Burke’s) actions
had the effect of preventing or excluding competition.
It might have excluded ACS from Meadow Burke
products but it did not prevent, harm, or even lessen
competition. Indeed, the fact that ACS introduced
SureBuilT products into Florida shows the
pro-competitive effect of White Cap’s actions, not an
anticompetitive effect. White Cap’s conduct caused an
increase in the number of tilt-equipment brands from
which Florida contractors could choose. (See Dkts. 55-2
¶ 33; 73-1 ¶ 33.)
The record contains ample evidence that interbrand
competition in tilt construction increased following
White Cap’s conduct in May 2016. For instance, “[o]ver
the last two years, Construction Materials, Dayton
Superior’s exclusive tilt-supplies distributor in Florida,
has increased its investment in Florida in competition
with White Cap and Meadow Burke” by: (a) hiring a
former White Cap tilt specialist to reach new customers
in Florida and elsewhere in the Southeast; (b) spending
about a million dollars on tilt braces for use in Florida
and the Southeast; (c) employing a full-time estimator
who works out of Construction Materials’ Tampa office;
and (d) replacing or adding three or four trucks in
Florida. (Dkt. 73-1 ¶ 34.)
That ACS could not successfully maintain its
business in Florida is immaterial.7 Likewise, the fact
7

ACS does not blame White Cap for its decision to close its Florida
office and concedes that White Cap has done nothing to prevent
ACS from selling the SureBuilT brand in Florida. (Dkts. 55-2 ¶ 31;
73-1 ¶ 31.)

App. 52
that SureBuilT was not ACS’s first-choice partner is
immaterial. The antitrust laws do not ensure that
every competitor receives its first choice and gets what
it wants. “The purpose of the [Sherman] Act is not to
protect businesses from the working of the market; it is
to protect the public from the failure of market.”
Spectrum Sports, Inc. v. McQuillan, 506 U.S. 447,
458–59 (1993). The antitrust laws were intended to
protect competition for the benefit of consumers, not
the preferences of competitors. Brooke Grp. Ltd. v.
Brown & Williamson Tobacco Corp., 509 U.S. 209, 224
(1993); see Burdett Sound, Inc. v. Altec Corp., 515 F.2d
1245, 1249 (5th Cir. 1979) (“Lest any other former
distributors succumb to the temptation of treble
damages, we reiterate that it is simply not an antitrust
violation for a manufacturer to . . . terminate his
relationship with a former distributor, even if the effect
of the new contract is to seriously damage the former
distributor’s business.”).8
Much of what the parties present as evidence of an
adverse or beneficial effect on competition is pure
speculation. For instance, White Cap claims that, if
Meadow Burke had continued to supply ACS, Meadow
Burke’s share of the market would have increased even
more. But ACS counters that, had Meadow Burke
continued their business relationship, White Cap
instead would have taken its business elsewhere and
thus Meadow Burke’s share would not have increased.
But each of these proffered outcomes are speculative.
8

In Bonner v. City of Prichard, 661 F.2d 1206, 1209 (11th
Cir.1981) (en banc), the Eleventh Circuit adopted as binding
precedent all decisions of the former Fifth Circuit handed down
before October 1, 1981.

App. 53
The Court considers the facts in front of it, as the
parties have presented them, and as they have actually
transpired. See K.M.B Warehouse Distribs., Inc. v.
Walker Mfg. Co., 61 F.3d 123, 128 (2d Cir. 1995)
(granting summary judgment because rejected
distributor “continued to compete” by selling
alternative brand and “offering superior pricing and
service to counteract what it considers the higher
quality” of the incumbent brand).
In antitrust cases such as this one, the chilling
effect on procompetitive behavior and the
extraordinary incentives to sue — automatic treble
damages and “the cost of suit, including a reasonable
attorney’s fee” — “endorse[ ] the use of summary
judgment.” 15 U.S.C. § 15(a); see Tidmore Oil Co., Inc.
v. BP Oil Co., 932 F.2d 1384, 1388 (11th Cir. 1991)
(affirming award of summary judgment to the
defendant). And the Court finds summary judgment
warranted, concluding that ACS has failed to point to
evidence creating a genuine issue of material fact about
the crucial prerequisite of harm to competition in
general, as opposed to harm to a particular competitor.
See Star Discount Pharmacy, Inc. v. MedImpact
Healthcare Sys., Inc., 614 F. App’x 988, 990 (11th Cir.
2015) (per curiam) (“[T]his indication of harm is harm
only to a single competitor (i.e., plaintiffs) and not
harm to competition in general.”) As the Supreme
Court has explained, “[e]ven an act of pure malice by
one business competitor against another does not,
without more, state a claim under the federal antitrust
laws.” Brooke Grp. Ltd., 509 U.S. at 225. Because ACS
has failed to show that Meadow Burke’s conduct
prevented or excluded competition (other than

App. 54
preventing it from using its preferred manufacturer),
the Court grants summary judgment to White Cap on
ACS’s Section 2 monopolization claim.
2. Count Two – Attempted Monopolization
Attempt to monopolize requires specific intent to
achieve monopoly power. See Spectrum Sports, Inc.,
506 U.S. at 456. “[T]o demonstrate attempted
monopolization a plaintiff must prove (1) that the
defendant has engaged in predatory or anticompetitive
conduct with (2) a specific intent to monopolize and (3)
a dangerous probability of achieving monopoly power.”
Id. The attempted monopolization claim is thus harder
to maintain and prove that the monopolization claim.
The Court has already determined that neither
White Cap nor Meadow Burke engaged in predatory or
anticompetitive conduct, “which is conduct without a
legitimate business purpose that makes sense only
because it eliminates competition.” See Morris
Commc’ns, 364 F.3d at 1295. Meadow Burke and White
Cap have both presented legitimate, non-pretextual
reasons for their conduct. Meadow Burke was
concerned that it was “maxed out” in its engineering
department and could not effectively increase its
capacities without lengthening its already “backlogged”
turnaround times. White Cap was concerned that its
wait-times would increase even further. Without a
showing of predatory or anticompetitive conduct, ACS
thus cannot succeed on an attempted monopolization
claim, which requires the same elements of a
monopolization claim plus a specific intent. Further
still, ACS has presented nothing — either direct
evidence or circumstantial evidence — demonstrating

App. 55
a “specific intent to monopolize” on the part of White
Cap or Meadow Burke. The Court thus grants
summary judgment to White Cap on ACS’s attempted
monopolization claim in Count Two.
3. Count Three – Restraint of Trade
Section 1 of the Sherman Act “does not prohibit
every act that has the effect of restraining trade . . . [it]
prohibits only a ‘contract, combination[,] . . . or
conspiracy in restraint of trade.’ “ Tidmore Oil Co., 932
F.2d at 1388 (affirming grant of summary judgment to
defendant because no identifiable agreement to
restrain trade). Whether the challenged
anticompetitive conduct “stem[s] from independent
decision or from an agreement, tacit or express” forms
the “critical question” in Section 1 cases. Theatre
Enters., Inc. v. Paramount Film Distrib. Corp., 346
U.S. 537, 540 (1954); see also Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 557 (2007) (reversing circuit
court and remanding for dismissal because pleading
alleged “merely parallel conduct that could just as well
be independent action”); Tidmore Oil Co., 932 F.2d at
1388 (reversing circuit court’s denial of summary
judgment because “the first inquiry . . . is to locate the
agreement that restrains trade”).
ACS thus must provide either direct or
circumstantial evidence of an unlawful agreement.
ACS has failed to do so. The record contains no direct
evidence of an agreement. Indeed, ACS admits this.
(See Dkt. 73-1 ¶ 27 (admitting that there are “no
internal records of why Meadow Burke cut off ACS”).)

App. 56
ACS has also pointed to no circumstantial evidence,
which “is by its nature ambiguous, and necessarily
requires the drawing of one or more inferences in order
to substantiate claims of illegal conspiracy.”
Williamson Oil Co., Inc. v. Philip Morris USA, 346 F.3d
1287, 1300 (11th Cir. 2003). To be sure, the evidence
shows that White Cap complained to Meadow Burke
about Meadow Burke’s decision to supply ACS. And,
further, the evidence shows Meadow Burke thereafter
decided to stop supplying ACS. From this, a jury could
infer that Meadow Burke did so in response to White
Cap’s complaint about ACS. But that is not enough.
The Supreme Court has explained that permitting an
illegal agreement to be inferred “merely from the
existence of complaints, or even from the fact that
termination came about ‘in response to’ complaints,
could deter or penalize perfectly legitimate conduct.”
See Monsanto Co. v. Spray-Rite Serv. Corp., 465 U.S.
752, 763–64 (1984). Something more is needed. “There
must be evidence that tends to exclude the possibility
that the manufacturer
and n o n t e r m i n a t e d
distributors were acting independently.” Id.; see also
U.S. Anchor Mfg., Inc. v. Rule Indus., Inc., 7 F.3d 986,
1001–02 (11th Cir. 1993) (“Federal antitrust law
requires a plaintiff to introduce evidence that tends to
exclude the possibility that the defendants acted
independently or legitimately.”).
ACS claims it has “abundant evidence of concerted
action,” “overwhelming direct and circumstantial
evidence,” and “extensive evidence showing a genuine
issue of material fact that Meadow Burke did not act
independently in cutting off ACS in Florida.” (Dkt. 73
at 2, 12, 15.) ACS argues in a brief: “White Cap

App. 57
threatened Meadow Burke. Meadow Burke acquiesced
to the threats from White Cap. Furthermore, Meadow
Burke and White Cap both admitted that ACS was
terminated in response to the pressure from White
Cap.” (Dkt. 73 at 16.) These conclusory assertions are
not enough to withstand summary judgment. This is
precisely the evidence the Supreme Court found
lacking in Monsanto. See also Procaps S.A. v. Patheon,
Inc., 845 F.3d 1072, 1080 (11th Cir. 2016) (holding
argument unavailing when plaintiff “wholly failed to
establish concerted action”); cf. City of Tuscaloosa v.
Harcos Chemicals, Inc., 158 F.3d 548, 570 (11th Cir.
1998) (finding “no shortage of evidence” of concerted
action and denying summary judgment).
ACS’s brief in opposition to White Cap’s motion for
summary judgment is untethered from the law. It
admonishes the Court to “look beyond a bald denial of
concerted action and analyze the substance of the
evidence.” (Dkt. 73 at 15.) The Court has done so and
found ACS’s evidence lacking. As explained above, the
record shows that White Cap had a legitimate reason
to complain to Meadow Burke about its decision to
supply ACS — specifically, its frustration with already
long lead times within Meadow Burke’s engineering
department, its fear that adding ACS would exacerbate
the situation, and its further irritation that ACS
jumped the line on its Florida project. (Dkts. 55-2 ¶ 21;
78-1 ¶ 52.) And the undisputed record evidence also
shows that Meadow Burke had a legitimate reason for
deciding not to add ACS as a competitor — specifically,
its loyalty to White Cap for the investment it had made
in Florida, its concern about the capacity of its

App. 58
engineering department, and its overall satisfaction
with its level of business.
This evidence does not provide the “something
more” the Supreme Court said was required in
Monsanto. The Supreme Court recognized that
manufacturers often obtain information from
distributors about the market and use that information
to guide their actions. The Supreme Court focused on
information about the manufacturer’s “prices and the
reception of their products in the market” — often
arising from a distributor’s complaints about prices.
Monsanto, 465 U.S. at 726. The Supreme Court further
noted that, to prevent manufacturers from reacting to
these complaints (or to attach antitrust liability from
its decision to do so) would inhibit a company’s ability
to respond to market conditions. See id. at 764 (“To bar
a manufacturer from acting solely because the
information upon which it acts originated as a price
complaint would create an irrational dislocation in the
market.”).
The same is true here. The evidence shows that
Meadow Burke came to realize — from White Cap’s
complaint about ACS’s “jumping in line” with
engineering — that it did not have enough production
capacity to meet those expanded needs. (Dkt. 67-1 at
34:11–19.) Crawford testified that at the time, Meadow
Burke had “quite a bit of backlog” in their engineering
department and “were behind where [they] wanted to
be.” (Dkt. 66-1 at 19:14–17.) He also testified that
White Cap had “invested heavily” in the Meadow
Burke brand and they had “collectively enjoyed a
strong business in Florida,” which was a “strong stable

App. 59
market.” (Id. at 18:25–19:6.) Because Meadow Burke
was already behind on their lead times at this point,
Crawford testified that “[t]here was no compelling
reason to make an adjustment to” what was otherwise
a “strong stable market.” (Id. at 19:6–8.) To prevent
Meadow Burke from taking this action (or to attach
antitrust liability to it) simply because the analysis
arose from White Cap’s complaint would upset natural
market conditions and prevent Meadow Burke from
independently acting in its own best interests. That is
exactly why the Supreme Court held “there must be
evidence that tends to exclude the possibility that the
manufacturer [Meadow Burke] and nonterminated
distributors [White Cap] were acting independently.”
Monsanto, 465 U.S. at 764.
There is no such evidence of “a conscious
commitment to a common scheme designed to achieve
an unlawful objective” here. Id. “[C]onclusory
statement[s] by [ACS] that a conspiracy existed,
without more, do[ ] not support ‘even an inference of
conspiracy’ and cannot survive a motion for summary
judgment.” Baker’s Carpet Gallery, Inc. v. Mohawk
Indus., Inc., 942 F. Supp. 1464, 1476 (N.D. Ga. 1996)
(quoting Dunnivant, 851 F.2d at 1579). The Court
grants summary judgment to White Cap on ACS’s
Section 1 restraint of trade claim.
4. Count Four
Interference

–

Claim

for

Tortious

ACS asserts a claim against White Cap that it
improperly interfered with ACS’s business relationship
with Meadow Burke. (Dkt. 7 ¶¶ 57–65.) White Cap
moves for summary judgment, arguing that ACS

App. 60
cannot satisfy the necessary elements. Under Georgia
law, to avoid summary judgment on its
tortious-interference claim, ACS must provide evidence
that
1) White Cap was a stranger to the business
relations between Meadow Burke and ACS;
2) White Cap
privilege;

acted

improperly

or

without

3) White Cap acted purposefully with malice and
with the intent to injure the business
relationship between ACS and Meadow Burke;
4) White Cap caused Meadow Burke to discontinue
or fail to enter into an anticipated business
relationship with ACS.
See Barnwell v. Barnette & Co., 476 S.E.2d 1, 2 (Ga.
Ct. App. 1996) (holding defendant entitled to summary
judgment on the plaintiff’s claim for tortious
interference); Servicetrends, Inc. v. Siemens Med. Sys.,
Inc., 870 F. Supp. 1042, 1068–69 (N.D. Ga. 1994)
(granting summary judgment to defendant after
plaintiff’s failure to show element of tortious
interference claim). ACS has failed to provide evidence
every element.
First, acting “improperly or without privilege”
requires behavior wrongful by itself, such as “physical
violence, fraud or misrepresentation, defamation, use
of confidential information, abusive civil suits, and
unwarranted criminal prosecutions.” Kirkland, 645
S.E.2d at 656 (affirming summary judgment when
plaintiff could not show defendant acted “improperly or

App. 61
without privilege”). There is none of that here.
Competitive business practices, including advocating
and persuading a supplier not to do business with a
rival, cannot satisfy this requirement. See id. at 656
(finding insufficient to show tortious interference “bare
evidence” that one party persuaded another to breach
a contract); Elder v. Cardoso, 421 S.E.2d 753, 757 (Ga.
Ct. App. 1992) (reversing trial court and granting
summary judgment because “dissuad[ing]” or
“discourage[ing]” statements could not support tortious
interference claim).
So, White Cap’s complaint to Meadow Burke (based
on its belief that it would be hurt by Meadow Burke’s
decision to supply ACS) is insufficient to state a claim.9
Even viewing the evidence in the light most favorable
to ACS, as the Court must, it can offer no evidence that
White Cap acted improperly and without privilege. As
stated above, there is also no evidence in the record to
suggest that White Cap in fact caused Meadow Burke
to stop working with ACS. The undisputed evidence
shows that
• Made aware of an unauthorized future shipment
of supplies by Meadow Burke to ACS, Doug
Crawford, Meadow Burke’s Vice President for
Sales and Marketing, considered whether
Meadow Burke would support ACS in Florida;

9

The record also contains no evidence sufficient to survive
summary judgment. Interestingly, the Court notes that White
Cap did not file a dispositive motion to dismiss before the start of
discovery.

App. 62
• Mr. Crawford decided not to supply ACS for
reasons having to do with Meadow Burke’s “best
interests”; and
• Mr. Crawford was unaware of or uninfluenced
by any “pressure” from White Cap to decide as
he did.
ACS points to no evidence that White Cap’s supposed
“pressure” caused Mr. Crawford to act as he did,
particularly when Mr. Crawford testified it did not.
(Dkt. 73-1 ¶¶ 25, 27.)
To demonstrate causation, ACS must provide
affirmative evidence that tends to exclude the
possibility of Meadow Burke’s independent action. See
Smith v. Morris, Manning & Martin, LLP, 666 S.E.2d
683, 694–95 (Ga. Ct. App. 2008) (affirming summary
judgment where decisionmaker asserted that
defendant’s actions did not affect his decision to
terminate the contract). And ACS has not done so. The
Court grants summary judgment to White Cap on
Count Four of ACS’s complaint for tortious
interference.
B. Plaintiff ACS’s Motion for Partial Summary
Judgment (Dkt. 56)
Plaintiff ACS moves for partial summary judgment
on the relevant market for its Section 2 antitrust
claims. Because the Court decides the monopolization
claims on other grounds in White Cap’s favor, the
Court denies as moot Plaintiff ACS’s motion for partial
summary judgment. (Dkt. 56.)

App. 63
C. Plaintiff ACS’s Motion to Exclude White
Cap’s Experts’ Regression Analysis (Dkt. 57)
ACS moves to exclude the regression analysis
offered by Dr. Kristin Terris, White Cap’s expert, under
Rules 702 and 403 of the Federal Rules of Evidence.
(Dkt. 57.) The Court agrees with White Cap, however,
that the role of the Court is to serve as gatekeeper, not
as an arbiter of probative value. (Dkt. 71 at 10.)
ACS takes issue with Dr. Terris’s choice of variable
in her regression analyses. (Dkt. 57 at 2.) But the
Court finds that this dispute goes to the probative
nature of the expert’s report, not its admissibility. As a
gatekeeper, the Court does not make ultimate
conclusions about the persuasiveness of the proffered
evidence. An expert’s selection of independent variables
“affect[s] the analysis’ probativeness, not its
admissibility.” Bazemore v. Friday, 478 U.S. 385, 400
(1986).
The Court notes that ACS’s reply brief highlights
the correctness of this conclusion. Its reply brief
essentially amasses what would be a proper
cross-examination. The Court thus denies ACS’s motion
to exclude Dr. Terris’s regressions. (Dkt. 57.)
D. Plaintiff ACS’s Motions to Seal (Dkts. 69;
75)
Plaintiff ACS has moved to retain under seal
certain documents marked as confidential by
Defendant White Cap. The documents contain White
Cap’s proprietary and competitively sensitive pricing
information and detailed customer information. (Dkt.

App. 64
74-1 at 1.) Given the narrow scope of the information
sought to be kept under seal, the Court finds good
cause to seal the documents under Federal Rule of Civil
Procedure 26. FED.R.CIV.P. 26(c). The Court grants
ACS’s motions for leave to file under seal. (Dkts. 69;
75.)
IV.

Conclusion

The Court GRANTS Defendant White Cap’s Motion
for Summary Judgment (Dkt. 55) on all counts of
Plaintiff ACS’s amended complaint and DENIES
Plaintiff ACS’s motion for partial summary judgment
(Dkt. 56).
The Court DENIES Plaintiff ACS’s Motion to
Exclude (Dkt. 57).
The Court GRANTS Plaintiff ACS’s motions for
leave to file under seal (Dkts. 69; 75) and DIRECTS the
Clerk to SEAL Plaintiff ACS’s filings at Docket
numbers 63 and 74.
SO ORDERED this 26th day of February, 2020.

s/______________________________________
MICHAEL L. BROWN
UNITED STATES DISTRICT JUDGE

